         Testimony of H. David Kotz
           Inspector General of the
     Securities and Exchange Commission




  Before the Subcommittee on Oversight and
Investigations, Committee on Financial Services
         U.S. House of Representatives



            Monday July 13, 2009
                2:00 p.m.
                                       Introduction

       Good afternoon. Thank you for the opportunity to testify today before this

Subcommittee on the subject of “Preventing Unfair Trading by Government Officials” as

the Inspector General of the Securities and Exchange Commission (SEC or Commission).

I appreciate the interest of the members of the Subcommittee in the SEC and the Office

of Inspector General. In my testimony today, I am representing the Office of Inspector

General, and the views that I express are those of my Office, and do not necessarily

reflect the views of the Commission or any Commissioners.

       I would like to begin my remarks this afternoon by discussing the role of my

Office and the oversight efforts we have undertaken during the past year. The mission of

the Office of Inspector General is to promote the integrity, efficiency and effectiveness of

the critical programs and operations of the SEC. The SEC Office of Inspector General

includes the positions of the Inspector General, Deputy Inspector General, Counsel to the

Inspector General, and has staff in two major areas: Audits and Investigations.

       Our Office of Audits conducts, coordinates and supervises independent audits and

evaluations related to the Commission’s internal programs and operations. The primary

purpose of conducting an audit is to review past events with a view toward ensuring

compliance with applicable laws, rules and regulations and improving future

performance. Upon completion of an audit or evaluation, the OIG issues an independent

report that identifies any deficiencies in Commission operations, programs, activities, or

functions and makes recommendations for improvements in existing controls and

procedures.




                                             1
       Over the past year, we have issued numerous audit reports involving issues

critical to SEC operations and the investing public, including a comprehensive report

analyzing the Commission’s oversight of the SEC’s Consolidated Supervised Entity

(CSE) program, which included Bear Stearns, Goldman Sachs, Morgan Stanley, Merrill

Lynch and Lehman Brothers, and providing a detailed examination of the adequacy of the

Commission’s monitoring of Bear Stearns, including the factors that led to its collapse.

In the past few months, we have also completed audits of the $178 million in

disgorgement waivers that the SEC Division of Enforcement (Enforcement) granted

between October 2005 and May 2008, and Enforcement’s practices and procedures for

responding to and processing naked short selling complaints. We anticipate issuing

several additional audit reports in the next few months, including a comprehensive

analysis of the SEC’s oversight of the Nationally Recognized Statistical Rating

Organizations.

       Our Office of Investigations examines allegations of violations of statutes, rules

and regulations, and other misconduct by Commission staff and contractors. We

carefully review and analyze the complaints we receive and, if warranted, conduct a

preliminary inquiry or full investigation into a matter. The misconduct investigated

ranges from fraud and other types of criminal conduct to violations of Commission rules

and policies and the Government-wide conduct standards. The Office of Investigations

conducts thorough and independent investigations into allegations received in accordance

with the applicable Quality Standards for Investigations. Where allegations of criminal

conduct are involved, we notify and work with the Department of Justice and the Federal

Bureau of Investigation (FBI) as appropriate.



                                            2
       Several of these investigations conducted by our staff have involved senior-level

Commission employees and represent matters of great concern to the Commission,

Congressional officials and the general public. Where appropriate, we have reported

evidence of improper conduct and made recommendations for disciplinary actions,

including removals. Specifically, over the past year and a half, we have issued

investigative reports regarding, inter alia, claims of improper preferential treatment given

to prominent persons, retaliatory termination, the Division of Enforcement’s failures to

pursue Enforcement investigations vigorously or in a timely manner, perjury by

supervisory Commission attorneys, misrepresentation of professional credentials,

falsification of personnel forms, lack of impartiality in the performance of official duties,

unauthorized disclosure of non-public information related to an Enforcement

investigation, and the misuse of official position, government resources and official time.

       In addition to the work I just described, we are conducting a wide-ranging

investigation and evaluation of matters related to Bernard Madoff and affiliated entities.

We have made substantial progress in our investigation and plan to issue shortly a

comprehensive investigative report detailing all the examinations and investigations that

the SEC conducted of Madoff or Madoff-related entities from 1992 until the present, and

analyzing the reasons why the SEC did not uncover the Madoff Ponzi scheme,

notwithstanding these examinations and investigations. We have already interviewed

over 100 witnesses and reviewed millions of e-mails and documents in connection with

these investigative efforts. We also plan to issue two additional reports providing

specific and detailed recommendations for improvement of both the SEC’s Division of




                                              3
Enforcement and the Office of Compliance Inspections and Examinations, which will

incorporate the findings from our investigative report.

     The Investigation of the Securities Transactions of Enforcement Attorneys

       It is with this background in mind that I wish to discuss an investigation that we

recently concluded relating to the securities transactions of two SEC Enforcement

attorneys over a two-year period. Our office received information from the SEC’s Ethics

Office that a particular Enforcement attorney was trading securities very frequently. As

we began investigating this Enforcement attorney’s trading activity, we identified another

Enforcement attorney who was a friend of this individual and with whom the first

attorney often discussed securities transactions and open Enforcement investigations

during regular weekly lunches and via e-mail.

       We conducted a year-long investigation of these Enforcement attorneys, which

encompassed a comprehensive review and analysis of more than two years of brokerage

records, ethics filings, securities transaction filings, and e-mail records. We also took

sworn, on-the-record testimony of numerous SEC Enforcement attorneys, and conducted

interviews of several other SEC staff members.

       On March 3, 2009, we issued our report of investigation to the agency. Our

investigation revealed suspicious conduct, appearances of improprieties, and evidence of

possible trading based on non-public information on the part of the two SEC

Enforcement attorneys. Because of the seriousness of the information that our

investigation uncovered, we referred the matter to the United States Attorney’s Office of

the District of Columbia’s Fraud and Public Corruption Section, which, together with the

FBI, is conducting an investigation of possible criminal and civil violations. Because this




                                              4
joint U.S. Attorney/FBI investigation is ongoing, I am somewhat limited in my ability to

discuss the details of this matter.

        In addition to the suspicions of insider trading, our investigation found that the

Enforcement attorneys committed numerous violations of the SEC’s securities reporting

requirements. For example, although SEC rules require employees to file a notification

form within five business days of the purchase or sale of every security, these

Enforcement lawyers failed to file these forms for certain transactions. Moreover,

although the Office of Government Ethics (OGE) Form 450 requires the reporting of an

employee’s security holdings with a value greater than $1,000 at the end of each calendar

year or that generated income of more than $200 during the year, the Enforcement

attorneys failed to report certain transactions or earnings that were over these limits on

their OGE Form 450s during the two-year period we reviewed during our investigation.

We also found that the one of the Enforcement attorneys failed to clear numerous stock

transactions through an agency database prior to purchasing stocks.

        Our investigation further found generally that, although the SEC is charged with

prosecuting cases of violations of the federal securities laws, including the investigation

and prosecution of insider trading on the part of individuals and companies in the private

sector, the SEC had essentially no compliance system in place to ensure that its own

employees, with tremendous amounts of non-public information at their disposal, did not

engage in insider trading themselves. The existing disclosure requirements and

compliance system were based on the honor system, and there was no way to determine if

an employee failed to report a securities transaction as required. No spot checks were

conducted, and the SEC did not obtain duplicate brokerage account statements. In




                                              5
addition, there was little to no oversight or checking of the reports that employees filed to

determine their accuracy or even whether an employee had reported at all. Moreover,

different SEC offices received the various types of reports and did not routinely share that

information with each other.

       We also found a poor understanding and lax enforcement of the securities

transaction reporting requirements. For example, both of the Enforcement attorneys

whose trading we investigated testified that no one had ever questioned their reported

securities holdings or transactions in the decades they worked at the SEC and traded

securities. Moreover, both managers who were responsible for reviewing these

attorneys’ annual OGE Form 450s testified that they did not recall ever questioning any

SEC employees with respect to their reported securities holdings. In addition, we found

that the Enforcement attorneys and supervisors who provided information during our

investigation lacked a basic understanding of the requirements in place that govern

Commission employees’ reporting of securities transactions.

       Our investigation also found that Enforcement personnel, both managers and

staff, had different interpretations of the confidentiality policy regarding Enforcement

investigations and whether they could discuss their investigative matters with one

another. We found that the Enforcement attorneys we investigated routinely discussed

stocks and investment strategies in e-mails and in public. They maintained separate

folders entitled, “Stocks,” in their SEC e-mail accounts and, on most days, sent e-mails

from those accounts about stocks and their own stock transactions. We discovered that

one of the Enforcement attorneys traded often, and even testified that the financial

markets were her main hobby and passion. We found that this attorney spent much of her




                                              6
work day e-mailing her co-workers about various stocks. We also found that these

Enforcement attorneys shared many of the same investments and had regular weekly

lunch meetings where they often discussed the stock market, their own securities

transactions, and their SEC work and investigative cases.

       Our investigation also disclosed that one of the Enforcement attorneys sent

e-mails to his brother and sister-in-law from his SEC e-mail account during the work day

recommending particular stocks, and sometimes informing them that the other

Enforcement employee had recommended those stocks as well.

       Our report recommended that the SEC take disciplinary action against the two

Enforcement attorneys who we found violated the SEC’s securities transactions

requirements. We also provided the Commission with 11 specific recommendations to

ensure adequate monitoring of employees’ future securities transactions. These

recommendations included establishing one primary office to monitor employees’

securities transactions; instituting an integrated, computerized system for tracking and

reporting purposes; obtaining duplicate copies of brokerage record confirmations for each

securities transaction for every SEC employee; requiring employees to certify in writing

that they do not have non-public information related to each security transaction they

conduct and report; ensuring that the forms SEC employees are required to file are

checked with the existing database; requiring SEC employees’ supervisor to review a list

of pending cases to compare with a list of the securities reported by the employees;

conducting regular and thorough spot checks for compliance purposes; developing a

clear, written policy on the confidentiality of Enforcement investigations; and




                                             7
establishing comprehensive and more frequent training on all aspects of the SEC’s rules

regarding employees’ securities transactions.

                  SEC Response to the OIG’s Report of Investigation

       Our investigation underscored the need for the SEC to revamp completely its

current process for monitoring SEC employees’ securities transactions. In response to

our report, on May 22, 2009, SEC Chairman Mary Schapiro announced that the SEC

would be taking measures to address the problems we identified. These measures include

drafting a new set of internal rules governing securities transactions for all SEC

employees that will require pre-clearance of all trades and, for the first time, prohibit staff

from trading in the securities of companies under SEC investigation regardless of

whether the employee has personal knowledge of the investigation. Chairman Schapiro

also announced that the SEC was contracting with an outside firm to develop a computer

compliance system to track, audit and oversee employees’ securities transactions and

financial disclosure in real time. Chairman Schapiro further stated that she signed an

order consolidating responsibility for oversight of employees’ securities transactions and

financial disclosure reporting within the Ethics Office and authorized the hiring of a

Chief Compliance Officer.

       The OIG is pleased that the SEC is planning to take concrete steps to address the

serious issues identified by our investigation. These steps, if implemented, would satisfy

the concerns raised in our report, and would even, in a few instances, go beyond the

OIG’s recommended actions. We plan to scrutinize carefully the new processes and

system that the SEC intends to implement to ensure that they operate effectively and as

planned.




                                              8
                                Concluding Remarks

       In conclusion, we appreciate the Subcommittee’s interest in the SEC and our

Office. I believe that the Committee’s and Congress’s involvement with the SEC is

beneficial to strengthen the accountability and effectiveness of the Commission. Thank

you.




                                           9
